Audit Report




OIG-08-007
Audit of the Federal Financing Bank’s
Fiscal Years 2007 and 2006 Financial Statements


November 14, 2007




Office of
Inspector General
Department of the Treasury
                                          DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NER AL
                                                    NOV 1 4 2007


             MEMORANDUM FOR SECRETARY PAULSON

             FROM:                    Dennis S. Schindel /s/
                                      Acting Inspector General

             SUBJECT:                 Audit of the Federal Financing Bank’s
                                      Fiscal Years 2007 and 2006 Financial Statements

             SUMMARY:

             I am pleased to transmit the attached audited Federal Financing Bank’s (FFB)
             financial statements for Fiscal Years (FY) 2007 and 2006, as required by the
             Government Corporation Control Act.

             DISCUSSION:

             Under a contract monitored by the Office of Inspector General, KPMG LLP, an
             independent certified public accounting firm, performed an audit of the financial
             statements of FFB as of September 30, 2007 and 2006 and for the years then
             ended. The contract required that the audit be performed in accordance with
             generally accepted government auditing standards; applicable provisions of Office
             of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
             Financial Statements; and the GAO/PCIE Financial Audit Manual. The following
             reports, prepared by KPMG LLP, are incorporated in the attachment:

                      •   Independent Auditors’ Report on Financial Statements;
                      •   Independent Auditors’ Report on Internal Control over Financial Reporting;
                          and
                      •   Independent Auditors’ Report on Compliance and Other Matters.

             In its audit of FFB’s financial statements, KPMG LLP found:

                      •   that the financial statements were fairly presented, in all material
                          respects, in conformity with U.S. generally accepted accounting
                          principles;
                      •   no matters involving internal control and its operation that are considered
                          material weaknesses; and
                      •   no instances of reportable noncompliance with laws and regulations
                          tested.
Page 2



In addition, KPMG LLP issued a management letter dated November 9, 2007,
discussing other matters involving internal control over financial reporting and its
operation that were identified during the audit, but were not required to be included
in the audit reports.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on FFB’s financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated November 9, 2007 and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 622-1090, or a
member of your staff may contact Marla A. Freedman, Assistant Inspector General
for Audit, at (202) 927-5400.

Attachment

cc:   Kenneth Carfine
      Vice President, FFB

      Roger Kodat
      Vice President and Treasurer, FFB
     FEDERAL FINANCING BANK
           Financial Statements

       September 30, 2007 and 2006

(With Independent Auditors’ Report Thereon)
                                   FEDERAL FINANCING BANK


                                          Table of Contents



                                                                            Page

Management’s Discussion and Analysis                                          1

Independent Auditors’ Report on Financial Statements                          5

Financial Statements                                                          7

Notes to Financial Statements                                                10

Other Supplementary Information – Schedule 1                                 17

Independent Auditors’ Report on Internal Control over Financial Reporting    18

Independent Auditors’ Report on Compliance and Other Matters                 20
                                     FEDERAL FINANCING BANK
                                  Management’s Discussion and Analysis
                      Unaudited – See Accompanying Independent Auditors’ Report
                                       September 30, 2007 and 2006



Introduction

The Federal Financing Bank (the Bank) is a government corporation under the general supervision and
direction of the Secretary of the Treasury. It was created by the Congress in 1973, at the request of the U.S.
Department of the Treasury (Treasury). The Bank actively borrows from Treasury and lends to Federal
agencies and private borrowers that have Federal guarantees. The Bank also has a debt obligation to the
Civil Service Retirement and Disability Fund.

Mission

The mission of the Bank is to reduce the costs of Federal and federally assisted borrowings, to coordinate
such borrowings with the Government’s overall fiscal policy, and to ensure that such borrowings are done
in ways that least disrupt private markets. To accomplish this mission, the Bank exercises its broad
statutory authority to purchase obligations issued, sold, or guaranteed by Federal agencies.

Objectives

The Bank was formed to be the vehicle through which Federal agencies finance programs involving the
sale or placement of credit market instruments, including agency securities, guaranteed obligations,
participation agreements and the sale of assets. This principle is applied in a manner consistent with the
Federal Financing Bank Act of 1973 (12 U.S.C. 2281 et seq.) and its legislative history. Guaranteed
programs entailing large numbers of relatively small loans in which local origination and servicing are an
integral part of the program are excluded.

The Bank makes funds available to Federal agencies and to guaranteed borrowers in accordance with
program requirements. The Bank is capable of providing a lending rate for any amount required and for
nearly any maturity. The rates charged by the Bank for terms such as prepayment provisions, forward
interest rate commitments and pass through of service charges are applied consistently for all borrowers.

The lending policy of the Bank is flexible enough to preclude the need for any accumulation of pools of
funds by agencies. This does not exclude the maintenance of liquidity reserves for those agencies that have
such a need. In no case will funds provided by the Bank be invested in private credit instruments or be used
to speculate in the market for public securities.

Organizational Structure

The Bank is subject to the general supervision and direction of the Secretary of the Treasury. The Board of
Directors is comprised of the incumbents of the following Treasury offices: the Secretary of the Treasury,
who as provided by law, is the Chairman; the Deputy Secretary; the Under Secretary for Domestic
Finance; the General Counsel; and the Fiscal Assistant Secretary.

The officers are incumbents of the following Treasury offices (corresponding Bank positions are in
parentheses): the Under Secretary for Domestic Finance (President); the General Counsel (General
Counsel); the Assistant Secretary for Financial Markets (Vice President); the Fiscal Assistant Secretary
(Vice President); the Deputy Assistant Secretary for Government Financial Policy (Vice President and
                                                  1
                                     FEDERAL FINANCING BANK
                                  Management’s Discussion and Analysis
                      Unaudited – See Accompanying Independent Auditors’ Report
                                       September 30, 2007 and 2006




Treasurer); and the Director, Office of Federal Lending (Secretary and Chief Financial Officer). A
delegation by the Bank President authorizes any Bank Vice President, in consultation with any other Bank
officer, to exercise the powers of the Presidency.

The staff of the Bank is organized into three units: loan administration, loan accounting and computer
support. The Loan Administration manager reports to the Chief Financial Officer (CFO) and is responsible
for the loan administrative unit, which includes the duties and responsibilities associated with credit
analysis, loan origination, loan structuring and customer service. The Accounting manager reports to the
CFO and heads a team of professionals responsible for loan disbursements, accounting for loan repayments
and financial reporting. The CFO also acts as the organization’s Chief Information Officer (CIO) with
responsibility for a team of information systems professionals who conduct in-house software development
and maintain the Bank’s Oracle-based mission critical enterprise application. That application provides
systems support for the loan administration and accounting functions.

Ongoing Issues

Under a provision in the 1987 enabling legislation for the U.S. Department of Agriculture’s Rural Utilities
Service (RUS) Cushion of Credit Payments Program (“cushion of credit”), the Bank receives considerably
less interest each year on certain RUS loans that it holds than it is contractually entitled to receive. This
provision, however, did not reduce the amount of interest the Bank owed on its corresponding loans from
Treasury. The shortfall in interest received by the Bank has resulted in substantial deficits in the past. The
cumulative losses from interest credits taken by the RUS, beyond losses that were extinguished by
appropriation in a previous year, totaled $1,101,277 thousand through September 30, 2007. The interest
shortfall is recorded on the statement of operations and changes in net position as legislatively-mandated
interest credit (contra-revenue to interest on loans). In September 2007, the Bank prepaid all corresponding
loans owed to Treasury that financed the RUS loans affected by the cushion of credit.

Section 774 of the Agriculture, Rural Development, Food and Drug Administration, and Related Agencies
Appropriations Act of 2006, also known as the Final Maturity Extension Authority, amended the Rural
Electrification Act of 1936 by adding a new section permanently authorizing maturity extensions for
RUS-guaranteed Bank loans. The Final Maturity Extension Authority allows borrowers of loans made by
the Bank and guaranteed by RUS to request an extension of the final maturity of the outstanding principal
balance of their RUS-guaranteed Bank loans. In 2007, as authorized under the Final Maturity Extension
Authority, the Bank extended the final maturity date for two borrowers to participate in this new program.

The Balanced Budget and Emergency Deficit Control Act of 1985, commonly known as Gramm-Rudman-
Hollings, Consolidated Omnibus Budget Reconciliation Act of 1985 and the Federal Credit Reform Act of
1990 include provisions that have acted as prohibitions and disincentives against the Bank financing of
certain loans that are 100 percent guaranteed by Federal agencies. The result has been a long term
reduction in the Bank loan portfolio and a more than corresponding increase in government guaranteed
loans funded in the private markets. Both of these trends are expected to continue unabated without
legislation to remove these statutory prohibitions against Bank financing.


                                                      2
                                   FEDERAL FINANCING BANK
                                 Management’s Discussion and Analysis
                       Unaudited – See Accompanying Independent Auditors’ Report
                                     September 30, 2007 and 2006




Financial Highlights

a. Statement of Operations and Changes in Net Position Highlights

   The following is a synopsis of the financial performance of the Bank for the fiscal year ended
   September 30, 2007. Interest on loans of $1,977,872 thousand for the fiscal year ended September 30,
   2007 was relatively unchanged compared to the interest on loans of $1,944,655 thousand for the fiscal
   year ended September 30, 2006. Though the loan portfolio has actually increased since the prior year,
   new loans were funded relatively late in the year. The legislatively-mandated interest credits reduced
   interest income by $97,830 thousand and $234,266 thousand for the fiscal years ended September 30,
   2007 and 2006, respectively, and are related to RUS “cushion of credit” loans. Revenue from servicing
   loans of $3,299 thousand for the fiscal year ended September 30, 2007, was up $868 thousand from
   $2,431 thousand for the fiscal year ended September 30, 2006.

   Interest on borrowings of $1,277,987 thousand for the fiscal year ended September 30, 2007 increased
   from the interest on borrowings of $1,175,643 thousand for the fiscal year ended September 30, 2006.
   After the administrative expenses of $4,718 thousand, net income of $600,636 thousand for the fiscal
   year ended September 30, 2007 represents a $67,450 thousand increase from the net income of
   $533,186 thousand for the fiscal year ended September 30, 2006.

b. Statement of Financial Position Highlights

   Funds with U.S. Treasury (cash equivalents) amounted to $228,114 thousand at September 30, 2007.
   In September 2007, the Bank made early repayments to the Treasury for $1,928,326 thousand,
   resulting in a net gain of $10,572 thousand. The repayment represents a capital transaction with
   Treasury and was a primary reason for the decrease in the Bank’s Funds with U.S. Treasury balance of
   $901,480 thousand at September 30, 2006.

   The loan portfolio (loans receivable) increased $2,148,549 thousand from $31,843,573 thousand at
   September 30, 2006 to $33,992,122 thousand at September 30, 2007. The increase is primarily the
   result of $2,100,000 thousand in short term loans to the United States Postal Service. The Bank’s net
   position increased to $2,365,037 thousand at September 30, 2007 from $1,753,829 thousand at
   September 30, 2006, primarily as a result of positive earnings.

   All of the loans in the Bank’s portfolio are federally guaranteed, except for those of the United States
   Postal Service. The Bank does not maintain a reserve for loan losses as no future credit related losses
   are expected.




                                                    3
                                   FEDERAL FINANCING BANK
                                 Management’s Discussion and Analysis
                     Unaudited – See Accompanying Independent Auditors’ Report
                                      September 30, 2007 and 2006




Performance Highlights

During fiscal year 2007, the Bank processed 405 new loan requests. The interest rate was set or reset on
1,110 loans in fiscal year 2007 for new loans and maturity extensions. The Bank received 431 prepayments
and processed 25,577 loan payments in fiscal year 2007. Additionally, the Bank extended the final maturity
date for 119 loans under the new Final Maturity Extension Authority discussed above.

Management Controls

The Bank completed an in-depth testing of its internal accounting and administrative control procedures in
accordance with OMB Circular No. A-123, Management Accountability and Control, in July 2007.
Additionally, in fiscal year 2006, a private contractor performed a certification and accreditation of the
Bank’s enterprise management system, known as the Loan Management Control System, which is
effective for three years.

Accordingly, we believe that the Bank’s systems of internal accounting and administrative controls fully
comply with the requirements for agency internal accounting and administrative control systems, providing
reasonable assurance that they are achieving the intended objectives.




                                                    4
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                         Independent Auditors’ Report on Financial Statements


Inspector General, U.S. Department of the Treasury and the
Fiscal Assistant Secretary of the U.S. Department of the Treasury:

We have audited the accompanying statements of financial position of the Federal Financing Bank
(the Bank) as of September 30, 2007 and 2006, and the related statements of operations and changes in net
position and cash flows for the years then ended. These financial statements are the responsibility of the
Bank’s management. Our responsibility is to express an opinion on these financial statements based on our
audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. Those standards
and OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Bank’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Federal Financing Bank, as of September 30, 2007 and 2006, and the results of its
operations and cash flows for the years then ended, in conformity with U.S. generally accepted accounting
principles.

The information in the Management’s Discussion and Analysis section is presented for the purpose of
additional analysis and is not a required part of the financial statements. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the methods of measurement
and presentation of this information. However, we did not audit this information and, accordingly, we
express no opinion on it.

Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The other supplementary information included in Schedule 1 is presented for purposes of additional
analysis and is not a required part of the financial statements. Such information has not been subjected to
auditing procedures and, accordingly, we express no opinion on it.



                                                                         5
                                 KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                 a member of KPMG International, a Swiss cooperative.
In accordance with Government Auditing Standards, we have also issued our reports dated November 9,
2007, on our consideration of the Bank’s internal control over financial reporting and its compliance with
certain provisions of laws, regulations, contracts, and other matters. The purpose of those reports is to
describe the scope of our testing of internal control over financial reporting and compliance and the results
of that testing, and not to provide an opinion on the internal control over financial reporting or on
compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 9, 2007




                                                     6
                                        FEDERAL FINANCING BANK
                                           Statements of Financial Position
                                            September 30, 2007 and 2006
                                                (Dollars in thousands)


                                  Assets                                            2007         2006
Funds with U.S. Treasury                                                      $      228,114      901,480
Loans receivable (notes 2 and 4)                                                  33,992,122   31,843,573
Advances to others                                                                       658          283
Accrued interest receivable                                                          451,930      445,699
              Total assets                                                    $   34,672,824   33,191,035
                        Liabilities and Net Position
Liabilities:
   Borrowings:
      Principal amount                                                        $   31,620,998   30,709,045
      Plus unamortized premium                                                       348,111      405,702
     Total borrowings (note 3)                                                    31,969,109   31,114,747
  Accrued interest payable                                                          338,529      322,330
  Other liabilities                                                                     149          129
              Total liabilities                                                   32,307,787   31,437,206
Net position (note 5)                                                              2,365,037    1,753,829
              Total liabilities and net position                              $   34,672,824   33,191,035


See accompanying notes to financial statements.




                                                          7
                                         FEDERAL FINANCING BANK
                               Statements of Operations and Changes in Net Position
                                     Years ended September 30, 2007 and 2006
                                                (Dollars in thousands)


                                                                                      2007       2006
Revenue and financing sources:
  Interest on loans                                                        $      1,977,872     1,944,655
  Less legislatively-mandated interest credit                                       (97,830)     (234,266)
     Net interest on loans                                                        1,880,042     1,710,389
  Revenue from servicing loans                                                          3,299       2,431
              Total revenue                                                       1,883,341     1,712,820
Expenses:
  Interest on borrowings                                                          1,277,987     1,175,643
  Administrative expenses                                                             4,718         3,991
              Total expenses                                                      1,282,705     1,179,634
              Net income                                                              600,636    533,186
Net position:
  Beginning of year                                                               1,753,829     1,220,643
  Net income                                                                        600,636       533,186
  Gain on extinguishment of borrowings treated as capital
     transaction (note 6)                                                              10,572           —
  End of year (note 5)                                                     $      2,365,037     1,753,829


See accompanying notes to financial statements.




                                                            8
                                     FEDERAL FINANCING BANK
                                           Statements of Cash Flows
                                   Years ended September 30, 2007 and 2006
                                             (Dollars in thousands)


                                                                                2007          2006
Cash flows from operations:
  Net income                                                           $        600,636       533,186
  Adjustments to reconcile net income to net cash provided
     by operations:
        Amortization of premium on loans                                         (57,591)     (68,938)
        Capitalization of interest receivable                                     (1,150)        (527)
        Capitalization of interest payable                                        94,322       88,628
        Increase in advances to others                                              (375)        (131)
        Increase in accrued interest receivable                                   (6,231)    (262,727)
        Increase in accrued interest payable                                      16,199      125,294
        Increase in other liabilities                                                 20          129
              Net cash provided by operations                                   645,830       414,914
Cash flows from investing activities:
  Loan disbursements                                                         (15,397,941)   (5,729,852)
  Loan collections                                                            13,250,542     1,661,150
              Net cash used in investing activities                           (2,147,399)   (4,068,702)
Cash flows from financing activities:
  Borrowings                                                                  15,397,941     5,730,270
  Repayments of borrowings                                                   (14,569,738)   (1,536,471)
              Net cash provided by financing activities                         828,203      4,193,799
              Net (decrease) increase in cash                                  (673,366)      540,011
Funds with U.S. Treasury – beginning of the period                              901,480       361,469
Funds with U.S. Treasury – end of the period                           $        228,114       901,480
Supplemental disclosures of cash flow information:
  Interest paid (net of amount capitalized)                            $       1,239,045     1,031,821
Supplemental schedule of noncash investing and financing activities:
  Gain on early extinguishment of borrowings treated as
     capital transactions. (note 6)                                    $          10,572             —


See accompanying notes to financial statements.




                                                          9
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2007 and 2006
                                             (Dollars in thousands)



(1)   Summary of Significant Accounting Policies
      The Federal Financing Bank (the Bank) was created by the Federal Financing Bank Act of 1973
      (12 USC 2281, the Act) as an instrumentality of the U. S. Government and a body corporate under the
      general supervision of the Secretary of the Treasury (the Secretary). The budget and audit provisions of the
      Government Corporation Control Act are applicable to the Bank in the same manner as they are applied to
      other wholly owned government corporations.

      The Bank was established by Congress at the request of the U.S. Department of the Treasury (Treasury), in
      order “to assure coordination of Federal and federally assisted borrowing programs with the overall
      economic and fiscal policies of the U. S. Government, to reduce the cost of Federal and federally assisted
      borrowing from the public, and to assure that such borrowings are financed in a manner least disruptive of
      private financial markets and institutions.” The Bank was given broad statutory authority to finance
      obligations issued, sold, or guaranteed by Federal agencies so that the Bank could meet these debt
      management objectives.

      The Bank is authorized, with the approval of the Secretary to issue obligations to the public in amounts not
      to exceed $15,000,000. Additionally, the Bank is authorized to issue obligations in unlimited amounts to
      the Secretary and, at the discretion of the Secretary, may agree to purchase any such obligations.

      (a)   Basis of Presentation
            The Bank has historically prepared its financial statements in accordance with accounting principles
            generally accepted in the United States of America (GAAP), based on standards issued by the
            Financial Accounting Standards Board (FASB), the private-sector standards-setting body. In
            October 1999, the American Institute of Certified Public Accountants (AICPA) designated the
            Federal Accounting Standards Advisory Board (FASAB) as the standards-setting body for the
            establishment of accounting principles generally accepted in the United States of America with
            respect to the financial statements of Federal government entities. The FASAB has indicated that
            financial statements prepared based upon standards promulgated by the FASB may also be regarded
            as in accordance with GAAP for those Federal entities, such as the Bank, that have issued financial
            statements based upon FASB standards in the past. Accordingly, consistent with historical reporting,
            the Bank’s financial statements are presented in accordance with accounting and financial reporting
            standards promulgated by the FASB.

      (b)   Basis of Accounting
            The financial statements are presented on the accrual basis of accounting. The Bank recognizes loans
            when they are issued and related repayments when they are received. The Bank recognizes
            borrowings when they are received and repayments when they are made. In addition, the Bank
            recognizes interest on loans and revenue from servicing loans when they are earned and recognizes
            interest on borrowings and expenses when they are incurred.




                                                       10
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2007 and 2006
                                       (Dollars in thousands)



(c)   Funds with U.S. Treasury
      As a government corporation, the Bank maintains a Fund Balance with Treasury (fund
      account 20X4521) and does not hold cash. For the purposes of the statement of cash flows, the funds
      with Treasury are considered cash.

(d)   Loans Receivable
      The Bank issues loans to Federal agencies for their own use or to issue loans to private sector
      borrowers, whose loans are guaranteed by the Federal agencies. When a Federal agency has to honor
      its guarantee because a private sector borrower defaults, the Federal agency must obtain an
      appropriation or use other resources to pay the Bank. Loan principal and interest are backed by the
      full faith and credit of the U.S. Government, except for loans to the U.S. Postal Service. The Bank
      has not incurred and does not expect to incur any credit-related losses on its loans.

(e)   Interest on Loans
      The Bank’s general policy is to capture the liquidity premium between Treasury securities and the
      private sector lending rates, and to charge a rate that reflects the risk inherent in a borrower or
      transaction, when such a rate will accomplish a broader goal. The income resulting from the interest
      spread covers the administrative expenses of the Bank and any surplus is transferred to the
      Treasury’s General Fund. Under amendments to the Federal Credit Reform Act, effective October 1,
      1998, while the Bank is permitted to charge a spread on new lending arrangements with government-
      guaranteed borrowers, the margin is not retained by the Bank, but rather is retained by the loan
      guarantor. In the event that this results in the Bank being unable to fund its administrative expenses
      related to these loans, the Federal Credit Reform Act, as amended, states that the Bank may require
      reimbursement from loan guarantors.

(f)   Capitalized Interest
      In accordance with their loan agreements with the Bank, the General Services Administration (GSA),
      Historically Black Colleges and Universities (HBCU) and Veteran Administration Transitional
      Housing (VATH) have the option of deferring payments of interest on their loans until future
      periods. When GSA, HBCU or VATH elect, in advance, to defer interest payments, the accrued
      interest is recorded as capitalized interest receivable and added to the respective loan balance by the
      Bank. The Bank correspondingly capitalizes the interest payable on its related borrowings.

(g)   Premium on Borrowings
      The Bank amortizes the premium on borrowings using the effective interest method. The
      amortization is recorded as part of interest on borrowings on the statement of operations and changes
      in net position.

(h)   Revenue from Servicing Loans
      The Bank charges certain Rural Utilities Services (RUS) borrowers a loan service fee that is reported
      as revenue from servicing loans on the statements of operations and changes in net position. The


                                                 11
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2007 and 2006
                                       (Dollars in thousands)



      Bank’s loan servicing fee is equal to one-eighth of one percent more than the contractual interest rate
      with Treasury.

(i)   Legislatively-mandated Interest Credit
      In prior years, the Bank purchased certificates of beneficial ownership (i.e., loans reported as loans
      receivable on the statement of financial position) from RUS, a component of the U.S. Department of
      Agriculture. RUS used the funds received from the Bank to issue loans to non-federal entities,
      specifically private utility companies. In 1987, Congress passed legislation (i.e., 7 USC Sec. 940c -
      Cushion of Credit Payments Program) that required RUS to develop and promote a program to
      encourage private utility companies to voluntarily make deposits into cushion of credit accounts
      established within RUS. The legislation also indicated that private utility companies may reduce the
      balance of their cushion of credit account only if the reduction is used to make scheduled payments
      on loans received from RUS. In accordance with the legislation, the private utility companies accrue
      interest at the higher of 5% per annum or the weighted average rate of the certificates of beneficial
      ownership on cash deposited into the cushion of credit accounts with RUS. The legislation also
      indicated that RUS shall receive an interest credit from the Bank equal to the amount of interest RUS
      pays to the private utility companies. The Bank records the interest credit in the period the cost is
      incurred as a legislatively-mandated interest credit (contra-revenue to interest on loans) in the
      statement of operations and changes in net position.

(j)   Administrative Expenses
      The Bank is subject to the general supervision and direction of the Secretary of the Treasury. As
      provided by law, the Secretary acts as Chairman of the board of directors. Employees of Treasury’s
      Departmental Offices perform the Bank’s management and accounting functions; its legal counsel is
      the General Counsel of the Treasury. The Bank reimburses Treasury for the facilities and services it
      provides. The amounts of such reimbursements are reported as administrative expenses in the
      statement of operations and changes in net position.

(k)   Net Position
      The Bank can borrow from Treasury to meet its immediate cash needs and can also seek
      appropriations from Congress to make up for accumulated losses that will not be met by income.

(l)   Management’s Use of Estimates
      The preparation of financial statements in conformity with GAAP requires management to make
      estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
      contingent assets and liabilities at the date of the financial statements and the reported amounts of
      income and expenses during the reporting period. Actual results could differ from those estimates.

(m)   Tax-Exempt Status
      The Bank is exempt from tax in accordance with Section 11(a) of the Federal Financing Bank Act of
      1973 (12 USC 2281).


                                                 12
                                       FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2007 and 2006
                                              (Dollars in thousands)



      (n)   Related Parties
            The Bank conducts most of its financial transactions with other Federal entities and therefore the
            financial statement balances that represent transactions with other Federal entities include all assets;
            liabilities, except borrowings from the public of $10 as of September 30, 2007 and 2006; revenues;
            and expenses.

      (o)   Future Accounting Standards
            In September 2006, the FASB issued SFAS No. 157, Fair Value Measurements. SFAS No. 157
            defines fair value, establishes a framework for measuring fair value in generally accepted accounting
            principles (GAAP), and expands disclosures about fair value measurements. SFAS No. 157, Fair
            Value Measurements, is effective for financial statements issued for fiscal years beginning after
            November 15, 2007. The Bank has not completed the process of evaluating the impact that will
            result from adopting SFAS No. 157.
            In February 2007, the FASB issued SFAS No. 159, The Fair Value Option for Financial Assets and
            Financial Liabilities. SFAS No. 159 permits entities to choose to measure many financial
            instruments and certain other items at fair value that are not currently required to be measured at fair
            value and also establishes presentation and disclosure requirements designed to facilitate
            comparisons between entities that choose different measurement attributes for similar types of assets
            and liabilities. SFAS No. 159 is effective for financial statements issued for fiscal years beginning
            after November 15, 2007. The Bank has not completed the process of evaluating the impact that will
            result from adopting SFAS No. 159.
      (p)   Reclassifications
            Prior year amounts have been reclassified, where necessary, to conform to the current fiscal year
            presentation. Specifically, the legislatively-mandated interest credit was presented as legislatively-
            mandated expense in the prior year and has been reclassified as a contra-revenue to interest on loans
            to conform to the current year presentation on the statements of operations and changes in net
            position.
(2)   Loans Receivable
      Loans receivable represent the outstanding balances for loans to agencies. The Bank has the ability and
      intends to hold loans receivable until maturity or payoff. At September 30, 2007, the Bank had outstanding
      loans receivable of $33,992,122, with interest rates ranging from 2.501% to 16.183%, and maturity dates
      from October 1, 2007 to July 17, 2045. At September 30, 2006, the Bank had loans receivable of
      $31,843,573, with interest rates ranging from 2.037% to 16.183%, and maturing dates ranging from
      October 1, 2006 to July 17, 2045.




                                                       13
                                      FEDERAL FINANCING BANK
                                        Notes to Financial Statements
                                        September 30, 2007 and 2006
                                             (Dollars in thousands)



      Loans receivable at September 30, 2007 and 2006, consist of the following:
                                  Agency                                       2007                2006
      Rural Utilities Service, Department of Agriculture                $    21,687,204         21,366,837
      Rural Utilities Service, Department of Agriculture
        certificates of beneficial ownership (CBO)                            3,916,573          3,916,573
      General Services Administration                                         2,151,379          2,191,603
      U.S. Postal Service                                                     4,200,000          2,100,000
      Foreign Military Sales, Department of Defense                             836,466          1,023,946
      Low Rent Public Housing, Department of
        Housing and Urban Development                                              790,624         883,966
      Veteran Administration Transitional Housing Program                            4,990           2,478
      Ship Leasing, Department of Defense, Navy                                     69,619         170,586
      Historically Black Colleges and Universities, Department
        of Education                                                               315,215         155,347
      Small Business Administration                                                 16,989          26,510
      Virgin Islands, Department of the Interior                                       794           3,239
      Federal Railroad Administration, Department of
        Transportation                                                               2,269            2,488
                    Total loans receivable                              $    33,992,122         31,843,573


      The loans receivable due within one year are $5,556,462 and $4,892,767 as of September 30, 2007 and
      2006, respectively.

(3)   Borrowings
      Under the FFB Act, the Bank may, with the approval of the Secretary of the Treasury, borrow without limit
      from the Treasury. Repayments on Treasury borrowings match the terms and conditions of corresponding
      loans made by the Bank and bear interest at the respective rate as determined by the Secretary of the
      Treasury. The Bank’s borrowings are repayable on demand. At September 30, 2007, the Bank had
      Treasury borrowings of $17,620,988, with interest rates ranging from 1.822% to 13.759%, and maturity
      dates from October 1, 2007 to July 17, 2045. At September 30, 2006, the Bank had Treasury borrowings of
      $16,709,035, with interest rates ranging from 1.502% to 16.050%, and maturity dates from October 1,
      2006 to July 17, 2045.

      Additionally, at September 30, 2007 and 2006, the Bank had borrowings of $14,000,000 and an associated
      unamortized premium of $348,111 and $405,702, respectively, from the Civil Service Retirement and
      Disability Fund (CSR&DF), which is administered by the Office of Personnel Management (OPM). These
      borrowings are at stated interest rates ranging from 4.625% to 5.625%, effective interest rate of 4.125%,
      and with maturity dates ranging from June 30, 2009 to June 30, 2019. Borrowings from the public
      amounted to $10 at September 30, 2007 and 2006.




                                                      14
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2007 and 2006
                                             (Dollars in thousands)



      The scheduled principal repayments below reflect maturities of the Bank’s borrowings and do not
      necessarily match the maturities of assets in the Bank’s loan portfolio. Scheduled principal repayments of
      borrowings as of September 30, 2007, are as follows:
                              Repayment Date                                    Amount
                          2008                                           $       5,185,565
                          2009                                                   2,117,054
                          2010                                                   1,737,587
                          2011                                                   1,909,975
                          2012                                                   1,838,803
                          2013 and thereafter                                   18,832,014
                                        Total principal payments                31,620,998
                                        Plus unamortized premium                   348,111
                                        Total borrowings                 $      31,969,109


(4)   Fair Value of Financial Instruments
      (a)   Funds with U.S. Treasury
            The carrying amount approximates fair value because of the liquid nature of the funds with Treasury.

      (b)   Loans Receivable and Borrowings
            The fair value of loans receivable and borrowings is calculated using discounted cash flow analyses
            based on contractual repayment terms. The discount rates used in the loans receivable analysis are
            based on interest rates currently being offered by the Bank on loans of similar maturity and other
            characteristics. The discount rates used in the borrowings analysis are based on interest rates of
            current borrowings from Treasury using similar maturity and other characteristics. The fair value of
            loans receivable at September 30, 2007 and 2006, was $36,956,776 and $34,957,860, respectively.
            The fair value of borrowings at September 30, 2007 and 2006, was $32,201,562 and $31,028,820,
            respectively.

      (c)   Advances to Others, Accrued Interest Receivable, Accrued Interest Payable, and Other Liabilities
            The carrying amount of advances to others, accrued interest receivable, accrued interest payable, and
            other liabilities approximate fair value as they represent the amounts expected to be realized or paid
            and are current assets and liabilities.




                                                      15
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2007 and 2006
                                             (Dollars in thousands)



(5)   Net Position
      At September 30, 2007 and 2006, the net position includes the following:
                                                                                 2007               2006
      Transfers to Treasury                                            $     (1,682,847)          (1,682,847)
      Cumulative results of operations and gains/losses on
        extinguishment of borrowings treated as capital
        transactions                                                          4,047,884            3,436,676
                     Net position                                      $      2,365,037            1,753,829


      Included in the net position activity is income the Bank earned prior to fiscal year 2000 that the Bank
      transferred to Treasury.

(6)   Gain on Extinguishment of Borrowings Treated as Capital Transaction
      In September 2007, the Bank made early repayments to the Treasury totaling $1,928,326 resulting in a net
      gain of $10,572, which represents a capital transaction with Treasury and is reported as a gain on
      extinguishment of borrowings treated as a capital transaction on the statement of operations and changes in
      net position.

(7)   Capitalized Interest
      Capitalized interest receivable was approximately $33,047 and $45,155, and the related capitalized interest
      payable was $11,285 and $90,255 as of September 30, 2007 and 2006, respectively. Capitalized interest
      receivable and payable are reported as part of the loans receivable and borrowing balances, respectively, on
      the statement of financial position.




                                                       16
                                    FEDERAL FINANCING BANK
                              Other Supplementary Information – Schedule 1
                      Unaudited – See Accompanying Independent Auditors’ Report
                                       September 30, 2007 and 2006
                                           (Dollars in thousands)



In prior years, the Federal Financing Bank (Bank) purchased certificates of beneficial ownership (i.e., loans
reported as loans receivable on the statement of financial position) from the Rural Utilities Service (RUS),
a component of the U.S. Department of Agriculture. RUS used the funds received from the Bank to issue
loans to non-federal entities, specifically private utility companies. In 1987, Congress passed legislation
(i.e., 7 USC Sec. 940c - Cushion of Credit Payments Program) that required RUS to develop and promote a
program to encourage private utility companies to voluntarily make deposits into cushion of credit
accounts established within RUS. The legislation also indicated that private utility companies may reduce
the balance of its cushion of credit account only if the reduction is used to make scheduled payments on
loans received from RUS. In accordance with the legislation, the private utility companies accrue interest at
a rate of 5% per annum or the weighted average rate of the certificates of beneficial ownership on cash
deposited into the cushion of credit accounts with RUS. The legislation also indicated that RUS shall
receive an interest credit from the Bank equal to the amount of interest RUS pays to the private utility
companies. The Bank records the interest credit in the period the cost is incurred as a legislatively
mandated interest credit (contra-revenue to interest on loans) in the statement of operations and changes in
net position. As of September 30, 2007, the outstanding principal balance of the 17 RUS loans subject to
the certificates of beneficial ownership (CBO) legislation totaled $3,916,573, with interest rates ranging
from 7.755% to 15.325%, and maturity dates ranging from 2008 to 2021. In October 1998, the Bank
received an appropriation that off-set the RUS-CBO interest credits by $917,699.

The interest credits that the Bank has provided RUS-CBO through September 30, 2007 are as follows:
                   Fiscal Year                                          Interest Credits
                   1988–2002                                        $        1,220,516
                   2003                                                         71,810
                   2004                                                        150,134
                   2005                                                        244,420
                   2006                                                        234,266
                   2007                                                         97,830
                                  Total interest credits                     2,018,976
                                       Less appropriation                     (917,699)
                                  Total                             $        1,101,277




                                                           17
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                   Independent Auditors’ Report on
                               Internal Control over Financial Reporting


Inspector General, U.S. Department of the Treasury, and the
Fiscal Assistant Secretary of the U.S. Department of the Treasury:

We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2007 and 2006, and the related statements of operations and changes in net position and
cash flows for the years then ended, and have issued our report thereon dated November 9, 2007. We
conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. Those standards
and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance
about whether the financial statements are free of material misstatement.

The management of the Bank is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2007 audit, we considered the Bank’s internal control over
financial reporting by obtaining an understanding of the Bank’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the objectives
described in Government Auditing Standards and OMB Bulletin No. 07-04. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982. The objective of our audit was not to express an opinion on the effectiveness of the Bank’s
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
the Bank’s internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and would not necessarily identify all deficiencies in the internal control over
financial reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects the Bank’s ability to initiate, authorize, record, process, or report financial data
reliably in accordance with U.S. generally accepted accounting principles such that there is more than a
remote likelihood that a misstatement of the Bank’s financial statements that is more than inconsequential
will not be prevented or detected by the Bank’s internal control over financial reporting. A material
weakness is a significant deficiency, or combination of significant deficiencies, that results in more than a
remote likelihood that a material misstatement of the financial statements will not be prevented or detected
by the Bank’s internal control.

                                                                    18
                                   KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                   a member of KPMG International, a Swiss cooperative.
In our fiscal year 2007 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above.

We noted certain matters that we have reported to the management of the Bank in a separate letter dated
November 9, 2007.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 9, 2007




                                                  19
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury, and the
Fiscal Assistant Secretary of the U.S. Department of the Treasury:

We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2007 and 2006, and the related statements of operations and changes in net position and cash
flows for the years then ended, and have issued our report thereon dated November 9, 2007.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. Those standards
and OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance
about whether the financial statements are free of material misstatement.

The management of the Bank is responsible for complying with laws, regulations, and contracts applicable
to the Bank. As part of obtaining reasonable assurance about whether the Bank’s financial statements are
free of material misstatement, we performed tests of the Bank’s compliance with certain provisions of laws,
regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04. Our audit procedures were not designed to test the requirements of
OMB Bulletin No. 07-04 relating to the Federal Financial Management Improvement Act (FFMIA) of
1996, which are not considered applicable at the Bank level. FFMIA requirements will be reviewed and
reported on as part of the financial statement audit of the U.S. Department of the Treasury. We limited our
tests of compliance to the provisions described in the preceding sentences, and we did not test compliance
with all laws, regulations, and contracts applicable to the Bank. However, providing an opinion on
compliance with those provisions was not an objective of our audit, and accordingly, we do not express such
an opinion.

The results of our tests of compliance described in the preceding paragraph disclosed no instances of
noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 9, 2007

                                                                    20
                                    KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                    a member of KPMG International, a Swiss cooperative.
